USCA4 Appeal: 19-4129

Doc: 33-2

Filed: 05/15/2020

Pg: 1 of 1

Total Pages:(3 of 3)

FILED: May 15, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4129
(4:17-cr-00024-H-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DARIUS COTY WHITAKER
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CLERK

USCA4 Appeal: 19-4129

Doc: 32

Filed: 05/15/2020

Pg:2of4

PER CURIAM:
Darius Coty Whitaker pled guilty, pursuant to a written plea agreement, to one count
of brandishing a firearm in furtherance of a crime of violence, and one count of discharging
a firearm in furtherance of a crime of violence, both in violation of 18 II S C. S 9740.1
(2018). Whitaker’s counsel filed a brief pursuant to Anders v. California, 386 II S 738
(1967), conceding that there are no meritorious issues for appeal, but questioning whether
Hobbs Act robbery qualifies as a crime of violence under § 924(c). Although notified of
his right to do so, Whitaker has not filed a pro se supplemental brief. We affirm Whitaker’s
convictions.
While counsel questions whether Whitaker’s predicate crimes of violence were
Hobbs Act robberies, our review of the record leads us to conclude that the predicates were
attempted Hobbs Act robberies. We normally “review de novo the question whether an
offense qualifies as a crime of violence.” United States v. Mathis, 932 F,3d 247. 763 (4th
Cir.), cert, denied, 140 S. Ct. 639 (2019), and cert, denied, 140S.Ct 640 (2019). However,
Whitaker never argued that attempted Hobbs Act robbery did not qualify as a crime of
violence under § 924(c). “To preserve an argument on appeal, the defendant must object
on the same basis below as he contends is error on appeal.” United States v. Westbrooks,
780 F,3d 593.59,5 (4th Cir. 2015) (internal quotation marks omitted). Therefore, we review
Whitaker s argument for plain error. To prevail under the plain error standard, Whitaker
“must show (1) an error that (2) was clear or obvious, (3) affects substantial rights, and (4)
seriously affects the fairness, integrity or public reputation ofjudicial proceedings.” United

2

USCA4 Appeal:, 1r9-4129

Doc: 32

Filed: 05/15/2020

Pg:3of4

States v. Walker, 934 F.3d 375. 378 (4th Cir. 2019) (alteration and internal quotation marks
omitted).
A crime of violence for § 924(c) purposes is defined as:
an offense that is a felony and . . . (A) has as an element the use, attempted
use, or threatened use of physical force against the person or property of
another [(the “force clause”)], or (B) that[,] by its nature, involves a
substantial risk that physical force against the person or property of another
may be used in the course of committing the offense [(the “residual clause”)].
liLU.S.C. § 924(<?,X3). We have held that the residual clause is unconstitutionally vague.
United States v. Simms, 914F.3d229. 237 (4th Cir.) (en banc), cert, denied, 140S. Ct 304
(2019); accord United States v. Davis, 139 S. Ct. 2319. 2336 (2019). We have also held
that Hobbs Act robbery qualifies as a crime of violence under the force 'Clause. Mathis,
932 F,3d at 266- While we did not address attempted Hobbs Act robbery in Mathis, the
Eleventh Circuit has concluded that this offense qualifies as a crime bf violence under the
force clause. United States v. St. Hubert, 909 F.3d335. 352-53 (11 th Cir. 2018), abrogated
on other grounds by Davis, 139 S. Ct. at 2336. cert, denied, 139 S. Ct 1394 (2019), and
pet. for cert, filed, No. 19-5276 (U.S. July 23, 2019). In light of Mathis and St. Hubert, we
conclude that Whitaker cannot establish plain error. See United States v. Harris, 890 F.3d
480.491 (4th Cir. 2018) (“At a minimum, courts of appeals cannot correct an error pursuant
to plain error review unless the error is clear under current law.” (alterations and internal
quotation marks omitted)); United States v. Rouse, 362 F.3d 756 763 (4th Cir. 2004)
(recognizing, in absence of Supreme Court or Fourth Circuit authority, “decisions by other
circuit courts of appeals are pertinent to the question of whether an error is plain” (internal
quotation marks omitted)).
3

